<html>
<title> - ELKIND AND REGALBUTO NOMINATIONS</title>
<body><pre>[Senate Hearing 114-66]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-66
 
                    ELKIND AND REGALBUTO NOMINATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   TO

    CONSIDER THE NOMINATIONS OF JONATHAN ELKIND, TO BE AN ASSISTANT 
SECRETARY OF ENERGY (INTERNATIONAL AFFAIRS) AND MONICA C. REGALBUTO, TO 
     BE AN ASSISTANT SECRETARY OF ENERGY (ENVIRONMENTAL MANAGEMENT)

                               __________

                             JUNE 16, 2015


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                             U.S. GOVERNMENT PUBLISHING OFFICE
95283 PDF                            WASHINGTON : 2015                             
               
_______________________________________________________________________________________               
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7413041b34170107001c1118045a171b195a">[email&#160;protected]</a>  
             
               
               
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, Jr., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

                    Karen K. Billups, Staff Director
                Patrick J. McCormick III, Chief Counsel
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                           
                           C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman, and a U.S. Senator from Alaska...     1
Cantwell, Hon. Maria, Ranking Member, and a U.S. Senator from 
  Washington.....................................................     2

                               WITNESSES

Elkind, Jonathan, Nominee to be an Assistant Secretary of Energy 
  (International Affairs)........................................     6
Regalbuto, Dr. Monica C., Nominee to be Assistant Secretary of 
  Energy (Environmental Management)..............................    12

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria
    Opening Statement............................................     2
    Written Statement............................................     4
Elkind, Jonathan
    Opening Statement............................................     6
    Written Testimony............................................     9
    Responses to Questions for the Record........................    53
Murkowski, Hon. Lisa
    Opening Statement............................................     1
Regalbuto, Dr. Monica C.
    Opening Statement............................................    12
    Written Testimony............................................    14
    Responses to Questions for the Record........................    38


   TO CONSIDER THE NOMINATIONS OF JONATHAN ELKIND TO BE AN ASSISTANT 
SECRETARY OF ENERGY (INTERNATIONAL AFFAIRS) AND MONICA C. REGALBUTO TO 
     BE AN ASSISTANT SECRETARY OF ENERGY (ENVIRONMENTAL MANAGEMENT)

                              ----------                              


                         TUESDAY, JUNE 16, 2015

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:09 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. I call to order the Energy Committee hearing 
this morning. We are here today to consider two of the 
President's nominees for the Department of Energy.
    Mr. Jonathan Elkind has been nominated to be the Assistant 
Secretary of International Affairs. He currently serves as the 
Principle Deputy Assistant Secretary for that office.
    Dr. Monica Regalbuto has been nominated to be the Assistant 
Secretary for Environmental Management. She currently serves as 
the Principle Deputy Assistant Secretary for that office.
    Both of these nominees appeared before our Committee during 
previous Congresses. We favorably reported both nominations on 
a timely basis but neither nomination received a vote on the 
Floor last year.
    Mr. Elkind and Dr. Regalbuto, I welcome you both back to 
the Committee and appreciate not only your continued 
willingness to serve but also to do so in the face of delay.
    After legislative hearings in this Committee featuring 22, 
22, 26 and then 42 energy related bills, our agenda today may 
seem considerably lighter or at least easier to digest and 
easier to report on. Our obligation to provide advice and 
consent to the President under the appointment's clause of the 
Constitution is no less important than discharging our 
legislative responsibilities, so hearings on nominations, of 
course, are also part of our work.
    The decisions that are made by individuals in the 
Administration and positions subject to Senate confirmation 
often have lasting effects on our nation. The decisions of the 
nominees before us today will be no exception. The positions 
for which they have been nominated are important within DOE, 
capable of affecting everything from our international 
relations to the cleanup of nuclear waste.
    Your nominations are helped by the fact that Secretary 
Moniz has shown himself to be someone who will work with us and 
who we can work with, even if we do not always agree with him. 
Not only has Secretary Moniz made himself available to testify 
before the Committee to provide us briefings, he has also 
responded to our questions both in Committee and out. He has 
directed many other DOE officials to do the same.
    I greatly appreciate the level of communication that we 
have had back and forth between the Department of Energy, my 
office and this Committee.
    Mr. Elkind and Dr. Regalbuto, I trust that if you are 
confirmed you will continue the positive relationship between 
the Department of Energy and this Committee.
    I would also note this hearing offers an opportunity for 
you to hear what is important to us. We expect that you will 
take that back to DOE with you and that you will work with us 
if confirmed.
    I turn now to my Ranking Member and then we will swear the 
individuals in and proceed with the hearing.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Chairman Murkowski, for 
calling this hearing and for having these qualified nominees 
before us today.
    Dr. Regalbuto has been nominated to lead the Department's 
Office of Environmental Management. The office is responsible 
for cleanup of the environmental contamination that resulted 
from five decades of nuclear weapons production. This is an 
extremely critical assignment, not only for the importance of 
cleaning up these sites but for the complexity of the 
undertaking and the sheer scale of the problem.
    The Office of Environmental Management counts for about 
one-fifth of the Department's nearly $30 billion annual budget. 
This program is especially important to the State of Washington 
which is the home to the Hanford site, which is the largest, 
most complex and most expensive of all of the Department's 
cleanup sites.
    Dr. Regalbuto is extremely qualified for this position. She 
holds a doctorate degree, and for the past 15 years, she has 
held increasingly senior positions at Argonne National 
Laboratories and within the Department of Energy's Office of 
Nuclear Energy and Office of Environmental Management. For the 
past year, she has been the Principal Deputy Assistant for 
Environmental Management.
    I will have some very important questions for you today 
about both tank vapors and our process moving forward and the 
324 building on the site, and I look forward to hearing your 
responses on that.
    I also want to welcome Dr. Elkind, who has been nominated 
to lead the Department's Office of International Affairs. This, 
too, is an extremely important position, responsible for the 
Department's International Energy Policy and International 
Cooperation in Energy, Science and Technology. I look forward 
to asking him questions, as well.
    Thank you, Madam Chair, for this important nominations 
hearing.
    [The statement of Ranking Member Maria Cantwell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. Thank you, Senator Cantwell.
    Mr. Elkind and Dr. Regalbuto, the rules of the Committee 
which apply to all nominees require that they be sworn in 
connection with their testimony. So I would ask that you both 
please rise and raise your right hand?
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    Mr. Elkind. Yes.
    Dr. Regalbuto. Yes.
    The Chairman. Before you begin your statement I will ask 
three questions addressed to each nominee before this 
Committee.
    Will you be available to appear before this Committee and 
other Congressional Committees to represent Departmental 
positions and respond to issues of concern to Congress?
    Mr. Elkind. Yes.
    Dr. Regalbuto. Yes.
    The Chairman. Are you aware of any personal holdings, 
investments or interests that could constitute conflict or 
create the appearance of such a conflict should you be 
confirmed and assume the office to which you have been 
nominated by the President?
    Mr. Elkind. No.
    Dr. Regalbuto. No.
    The Chairman. Are you involved or do you have any assets 
held in blind trust?
    Mr. Elkind. No.
    Dr. Regalbuto. No.
    The Chairman. Thank you both.
    Mr. Elkind, let us begin with you if you would like to 
provide five minutes of comments to the Committee and then Dr. 
Regalbuto.
    I would also welcome either of you to introduce any family 
members that you may have with you. We all know that these jobs 
are not easy jobs. They require a lot of time, and the support 
of family is always nice. So it is good to be able to recognize 
them. When it is your time to proceed, if you would like to 
introduce your family we would certainly be happy to recognize 
them.
    Mr. Elkind, we will begin with you.

   STATEMENT OF JONATHAN ELKIND TO BE ASSISTANT SECRETARY OF 
                 ENERGY (INTERNATIONAL AFFAIRS)

    Mr. Elkind. Thank you so much, Chairman Murkowski, Ranking 
Member Cantwell, members of the Committee. I'm glad for the 
opportunity to appear today as you consider my candidacy to be 
the Assistant Secretary of Energy for International Affairs. 
I'm honored to have been nominated again for this post by 
President Obama and deeply appreciate the continuing confidence 
that he and Secretary Moniz have expressed by asking me to 
serve in this capacity.
    I would like to introduce and thank my wife of 27 years, 
Suzanne Mintz, as well as two of our three sons, Sam and Noah. 
My wife and sons, indeed as you note, Chairman Murkowski, 
understand that government service is an endeavor that affects 
not only the person serving, but also the entire family.
    The Chairman. Welcome.
    Mr. Elkind. Thank you.
    In 2009 I was appointed as Principle Deputy Assistant 
Secretary for Policy and International Affairs. This was my 
second tour with the Department but by coincidence my family's 
prior ties to DOE go back to my childhood. My father was a 
cancer researcher who spent portions of his career at 
Brookhaven and Argonne National Laboratories. The fact that I'm 
with you today, however, had more to do with my parents overall 
attitudes about career choice then with the particulars of my 
dad's careers.
    When I was an undergraduate my parents counseled me to find 
a professional niche that I felt passionate about, a place 
where I would want to make a contribution. Applying that 
guidance, for over 25 years now I have focused on international 
energy issues. I've worked inside the government under 
Presidents George H.W. Bush, Bill Clinton and Barack Obama. 
I've also worked as a private sector energy consultant and as a 
think tank researcher.
    From these experiences I know how important it is for the 
United States to work effectively on energy issues with our 
foreign partners. We need strong ties that allow us to 
understand where markets are heading and where there are 
opportunities for U.S. businesses and where there breakthroughs 
and flash points can emerge.
    Exactly on these fronts DOE has made and is making 
contributions that enhance the ability of the United States to 
achieve the energy outcomes that we need and desire. We apply 
knowledge of energy technologies, markets and policies to 
pursue U.S. objectives in international energy security, clean 
energy development and national security issues. We provide 
leadership on critical energy security engagements around the 
globe. We help address energy opportunities, challenges and in 
some cases, crises.
    Some examples include the following:
    Ukraine. Since the start of Russia's aggression the energy 
dimensions of the crisis in Ukraine have required careful 
attention and strong engagement. Ukraine needs assistance with 
effective energy planning, and my team has mobilized technical 
expertise to assist Kiev and to reduce its monopoly or near 
monopoly reliance on Russia for certain fuels. Moreover since 
the G7 Leaders Summit last year we have lead U.S. efforts to 
develop a collective energy security agenda among G7 partners 
and the European Union.
    Israel. Few countries face the particular energy challenges 
that Israel does, so we engage with Israel on critical issues 
like energy infrastructure protection, natural gas technical 
workshops, energy storage and the energy/water nexus. We aim to 
help Israel enhance its energy security, and to that end we 
conduct annual meetings as well as more frequent workshops and 
seminars.
    The Western Hemisphere. Some of the most important changes 
in the entire energy world are happening within our own 
hemisphere. In light of this it is natural that we have 
significantly intensified our engagements with Mexico and 
Canada, with Caribbean partners and with others in the 
hemisphere seeking to engage in the spirit of all of the above 
in collaborations based on good technology, sound economics and 
strong environmental performance.
    Last, the energy/water nexus. We have started to expand our 
collaborations on the numerous and critical linkages between 
our energy and water systems. Many foreign partners seek to 
work with DOE to understand both the technical and the policy 
dimensions of these linkages.
    For example, how to develop shale gas in water scarce 
regions. This is a key emerging area, an area where the United 
States stands to benefit from providing leadership.
    If I am fortunate enough to be confirmed by the Senate, 
these are the kinds of areas that will be my focus. I also look 
forward to working with this Committee to identify other 
opportunities to advance our energy objectives. I hope to 
secure your support so that I may have this opportunity.
    Thank you.
    [The prepared statement of Mr. Elkind follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
        
    The Chairman. Thank you, Mr. Elkind.
    Dr. Regalbuto, welcome.

STATEMENT OF DR. MONICA C. REGALBUTO TO BE ASSISTANT SECRETARY 
              OF ENERGY (ENVIRONMENTAL MANAGEMENT)

    Dr. Regalbuto. Thank you.
    Chairman Murkowski, Ranking Member Cantwell and members of 
the Committee, I appreciate the opportunity to appear before 
you today as President Obama's nominee for Assistant Secretary 
for Environmental Management at the United States Department of 
Energy.
    I would like to begin my statement by expressing my 
gratitude to the President for the confidence in me that he has 
demonstrated in his nomination. I am honored and humbled to be 
here, and should I be confirmed I will do my best to meet that 
confidence. I would also like to thank Secretary Moniz for his 
support and for his leadership at the Department of Energy.
    Professional achievement is seldom an individual effort. I 
have had the privilege of working with a multitude of talented 
people throughout my career as a chemical engineer. There are 
countless family members, friends, mentors and colleagues who 
have done so much over the years to make this day possible.
    I want to especially thank and recognize my husband, John, 
for always being supportive and patient and for my adult 
children, Ricky, Carol and Robby, who are now on their ways to 
productive careers. I am very proud of them.
    Lastly I would not be here without the loving support of my 
parents, Horacio and Conchita, for instilling in me great 
values during my childhood and for my parents-in-law, who I 
consider my second set of parents.
    Madam Chair, after completing my Ph.D. at the University of 
Notre Dame I joined Argonne National Laboratory in 1988. I 
began my career supporting the development of technologies for 
the treatment of high-level waste at the Department of Energy 
Plutonium Production sites.
    After developing strong technical skills, I joined BP-AMOCO 
in 1996 where I enhanced my skills in managing complex 
projects, large projects and multidisciplinary staff in an 
industrial setting.
    I returned to Argonne in 2001 and became the Head of the 
Process Chemistry and Engineering Department where I worked on 
new technologies for the treatment of used nuclear fuel.
    In 2008, I had the unique opportunity to join the 
Department of Energy, Office of Environmental Management where 
I served as a Senior Program Management supporting their 
strategic mission in the waste processing area.
    In 2010 I accepted a position as the Deputy Assistant 
Secretary for Fuel Cycle Technologies within the Office of 
Nuclear Energy. In this position, I was responsible for 
directing the research and development program involving 10 
national laboratories, 33 universities and over 400 scientists 
and 300 professors.
    I moved back to the Office of Environmental Management in 
June of 2014 as the Associate Principle Deputy Assistant 
Secretary. In this capacity I am responsible for leading EM's 
mission units and advancing EM's mission cleanup across the DOE 
complex.
    Madam Chair, the Manhattan Project was a critical component 
of our success in World War II and the Cold War. The 
communities and regions that were home to these sites have made 
significant sacrifices for our nation and the cleanup mission 
of the Environmental Management Program is both a legal and a 
moral obligation.
    I would like to mention a few of the important projects I 
have worked on in the past year.
    I have been involved in the recovery efforts of the Waste 
Isolation Pilot Plant (WIPP) in New Mexico. We mapped out an 
ambitious recovery plan and we're making substantial progress. 
We recently completed the interim closing of panel six and 
panel seven, room seven, activities necessary to isolate the 
nitrate salt bearing waste of the WIPP underground. And the 
Department remains committed to opening the facility.
    At Savannah River, workers at the Defense Waste Processing 
Facility (DWPF) marked a milestone for the site's liquid waste 
work. Since beginning operations in 1996, DWPF has poured more 
than 15 million pounds of glass and has immobilized more than 
55 million curies of radioactivity.
    Additionally, there are numerous ongoing projects that 
address critical cleanup issues across the complex such as the 
demolition of K31 building at Oak Ridge, demolition of the 
vitrification facility and main process building at West Valley 
and removal of approximately 680 pounds of chromium from the 
ground water near the Columbia River at Richland.
    The EM footprint has been reduced by 90 percent since 1989, 
but some of our biggest challenges remain ahead. Safe retrieval 
and treatment of Hanford tank waste is a critical part of EM's 
mission. In addition, completion of tank waste immobilization 
is an important element of the environmental legacy cleanup at 
Idaho.
    Many priorities remain. Much is going on in cleanup work at 
Paducah and Portsmouth, and I look forward to tackling these 
challenges if I am confirmed.
    I believe my background, experience and commitment have 
prepared me to lead the Office of Environmental Management 
during this particular critical time, and I welcome the 
opportunity to continue my service to the nation as Assistant 
Secretary for EM.
    If confirmed, I pledge to work closely with this Committee 
and others in Congress to ensure that we continue the safe 
cleanup of the nation's Cold War environmental legacy.
    Madam Chair, thank you again for the opportunity to appear 
before you and your Committee today. I look forward to 
answering any questions you and your Committee members may 
have.
    Thank you.
    [The prepared statement of Dr. Regalbuto follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
    The Chairman. Thank you, Dr. Regalbuto.
    Mr. Elkind, let me begin with you. At your confirmation 
hearing last Congress I asked you about oil and gas exports. 
You said to me, and I will quote your statement: ``It's a very 
important issue. It's one that has my full attention in my 
current role. If I am confirmed, please rest assured that this 
is something that will be very, very much a focus that I will 
be watching very closely.''
    Those were your words back in December of '13. We are now 
here in June of 2015. We have seen studies in this intervening 
time period from EIA, CBO, GAO, Columbia University, Rice 
University, Harvard Business School, Brookings Institute, Aspen 
Institute, and many more.
    I know that the licensing of exports goes through the 
Commerce Department so I understand the jurisdictional issues 
here, but I am asking you, as the Assistant Secretary of 
International Affairs, really more as a subject matter expert, 
if not a regulator, a very direct and a very limited question. 
Would U.S. allies welcome the option to purchase American crude 
oil?
    Mr. Elkind. Thank you, Madam Chair, for that question.
    As I said in December of '13, I still believe very much now 
it is a terribly, terribly important set of issues, and I am 
well aware of the focus that this has had under your 
Chairmanship and before. I'm well aware of the analysis that 
has been conducted by this Committee including the most recent 
piece entitled, Rendering Vital Assistance.
    As you will be aware, of course, the United States, today, 
remains a major importer of crude oil, seven million barrels a 
day. It's a market change from where we were as recently as six 
or seven years ago when our imports were at a level of ten and 
a half million barrels a day. Similarly we have already seen 
reductions of about two million barrels a day in total 
consumption by the United States.
    So it is in fact the case today already that our allies, 
our friends and others in the single global oil market are 
seeing benefits that come from the very dramatic increases in 
U.S. oil production and from the reduced consumption. There is 
simply more oil available on the market.
    The Chairman. Again, my question is pretty limited. Do you 
think that our friends and allies would welcome the opportunity 
to be able to purchase American crude?
    Mr. Elkind. Madam Chair, I believe that our friends and 
allies are already seeing benefits that have come from the 
changes that have taken place in our production and our demand 
for oil, so I believe that benefits are already accruing.
    The Chairman. Let me ask more specifically as to what is 
going on with the negotiations with Iran. DOE, of course, is 
actively involved in the negotiations with Iran. We have seen 
Secretary Moniz directly with Secretary Kerry in many of these 
discussions. I have argued that we should not lift sanctions on 
Iranian oil while at the same time we effectively maintain the 
export ban on American oil which, in my view, is akin to 
sanctions on U.S. oil producers. Can you commit to me that DOE 
will consider the consequences for American producers of any 
sort of deal on Iran sanctions?
    Mr. Elkind. Chairman Murkowski, I certainly can commit to 
you that all of the implications both on the non-proliferation 
side and on the oil market side are being very, very carefully 
considered and will be considered in the weeks ahead.
    The Chairman. Let me ask about the Arctic then. When you 
look at international scientific cooperation really the Arctic 
is this emerging area where, I think, it is clear we need to 
see greater cooperation. Many of the research needs in the 
region cross political border or are in more international 
spaces.
    What level of cooperation does DOE have through the Office 
of International Affairs with other Arctic nations including 
Russia on Arctic research and what can we do to build that out 
even further?
    Mr. Elkind. Thank you again for the question. It is a very 
important time indeed for a focus on the Arctic in that the 
United States has just this year assumed a two year Chair of 
the Arctic Council, as you will be well aware. That role is led 
by the State Department, Admiral Papp. We at DOE, however, 
participate very actively in the energy-related discussions 
that go on in that context.
    You'll be aware, I believe, that the National Petroleum 
Council was asked by Secretary Moniz to engage in a study 
looking at issues surrounding prudent development of energy in 
the Arctic and those results were released about six weeks ago.
    We're also engaged in some very interesting collaborations 
at an early stage with our Canadian and also with our Mexican 
colleagues. I alluded to the very dramatic changes that have 
been happening in the North American context and that also 
includes our neighbors to the North and the South.
    We are interested in looking at energy systems for isolated 
communities. It is just as applicable in a village setting in 
Alaska or in the Canadian North as it is in places elsewhere 
around the world far away in Africa, in South Asia.
    The key is to focus on cost reductions for hybrid renewable 
and fossil fuel energy systems and microgrids. This is an area 
where we see lots of opportunity for productive international 
collaborations, and it's something that, we think, has a lot of 
promise, not only in the North American context, but also 
elsewhere.
    The Chairman. We would certainly agree with that, and we 
would invite you to come up to Alaska to see some of the very 
innovative things that we are doing just with the microgrids.
    Mr. Elkind. Please tell me where I sign.
    The Chairman. I will let you know. Fishing season is on.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Dr. Regalbuto, obviously worker safety is paramount out at 
Hanford. One of the issues is tank farm safety, particularly as 
it relates to vapors. I know you are aware of the Savannah 
River National Laboratory report on tank vapors and worker 
exposure.
    I want to ask you about whether DOE will be taking action 
within the next year to provide protective equipment and 
detection devices for the workforce there?
    Dr. Regalbuto. Thank you for your question, Senator. We do 
share the fact that the number one priority for the Department 
of Energy and for myself is the protection of the workers, 
followed by the protection of the facilities where they work. 
It is imperative that we provide an environment where the 
workers go home the same way they came in.
    I am aware of the vapor issue at Hanford, and it is a very 
important issue to me.
    I'm aware of the Savannah River report, and we are in the 
process of implementing the recommendations of the report. 
We're actually looking at ways to institutionalize many of 
these recommendations so that the lessons learned don't change 
on a day-to-day or as conditions in the tanks change.
    We look forward to bringing that protection equipment to 
the workers, as specifically PPE, that is lighter, allowing the 
workers to work more efficiently and allow us to continue our 
retrievability schedule for the tanks. But we certainly will 
not do that unless we can do that safely.
    There are a number of new areas that we would like to 
explore in terms of worker protection, and that is what is 
called the science of safety in which we actually bring, as 
part of our technology development program, new activities 
where we can actually enhance the quality of the workers as 
they conduct their day-to-day operations.
    So if confirmed I look forward to continue to working with 
you and briefing you in subjects that will allow us to 
institutionalize our worker safety protection throughout the 
complex, not just at Hanford.
    Senator Cantwell. Well, thank you for saying that you are 
implementing lighter protective equipment and detective 
devices. I will look for a written response from you on exactly 
when you think the timing of that is because we want that done 
as soon as possible. I am not going to pin you to a specific 
date, but if you provide us that information--we are holding 
the Secretary accountable to this timeframe.
    On the 324 building, it is one of the most significant 
cleanup projects left at Hanford due to its high level of 
radioactivity and proximity to the Columbia River. I have been 
assured many times that this material has not seeped into the 
soil beneath, into the ground water and that we will be able to 
get this cleanup done in time. Can you give me some specificity 
about the remediation on that contamination and the timeframe 
in which that will happen?
    Dr. Regalbuto. Thank you for your question, Senator. 
Building 324 is definitely one of our buildings that is in the 
high risk category in addition to other facilities that I'm 
sure you're very familiar with, like the plutonium finishing 
plant and the sludge in Kay Basin.
    For the 325 building, by the end of Fiscal Year '16 we plan 
to finish the mock up, develop the design of what needs to be 
done in order to excavate and remove the soil that is beneath 
the building. My understanding is that the plume has not moved 
and it's not expected to move in a quickly manner, but the 
building right now is stable. Once we start excavation and 
removal of the contaminants that is when we put the workers at 
risk. So the mock up will serve the purpose of flaws to make 
sure that when we conduct these operations we will actually do 
this in a safe manner. So by the end of '15, Fiscal Year '16, 
we should have the design and the mock up ready to implement 
this process.
    Senator Cantwell. At what rate is the plume traveling 
through the soil and how much time before it reaches a water 
source? What do you think the timeframe on that is?
    Dr. Regalbuto. Currently the scientists that we have from 
the national laboratories including PNNL have taken a look at 
the plume and they're continually monitoring. If we don't 
disturb it, it will not be at a high rate, you know, it will be 
in the order of years. But once we start disturbing the soil 
then we do have to keep an active eye on the plume because when 
you introduce new and foreign material that's when the plume 
may travel. So we will have to do assessing of the traveling of 
the plume as we do the cleanup simultaneously.
    Senator Cantwell. Isn't it true that we do not know how to 
treat some of the chemicals that are there, though?
    Dr. Regalbuto. I think that the current process is there 
are some treatment methods but they're not the best, so they 
are looking at alternatives for the treatment methods. And we 
will have good answers for you by the end of the calendar year.
    Senator Cantwell. Thank you. I will have some follow up on 
this.
    Thank you, Madam Chair.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chair.
    Congratulations to both of you and to your families, 
welcome to the Committee, again.
    Dr. Regalbuto, since 2009 the Department of Energy has 
repeatedly violated its own written policy and violated Federal 
law when managing the public stockpile of excess uranium. As a 
result the Department of Energy has failed to obtain a fair 
return on this uranium for American taxpayers. The Department's 
mismanagement of this stockpile has also contributed to 
volatility in the uranium market and has led to job losses in 
states like my state of Wyoming. Between 2013-2014 employment 
among U.S. uranium producers fell 32 percent. Employment among 
U.S. uranium producers is now at the lowest level since 2006.
    Last month I, along with Senators Markey, Cornyn and 
Heinrich, introduced S. 1428. It is called the Excess Uranium 
Transparency and Accountability Act. This is clearly a 
bipartisan bill when you take a look at who those four co-
sponsors are.
    This would bring transparency and accountability to the 
Department of Energy's management of the public stockpile of 
excess uranium. Specifically the bill would require the 
Department to maximize the value of this uranium for the 
American taxpayers.
    The bill would also require that the Department give the 
American public a say in how it will manage this uranium in the 
near and the distant future.
    Finally, the bill would codify the Department of Energy's 
recent decision not to transfer more than 21 hundred metric 
tons of uranium in calendar year 2016 and thereafter.
    If confirmed you will play a significant role in managing 
the public stockpile of excess uranium. I would like to know 
whether you support this bipartisan bill, S. 1428, the Excess 
Uranium Transparency and Accountability Act and if you are in a 
position to discuss the bill today.
    Dr. Regalbuto. Thank you for your question, Senator. If 
confirmed, as Assistant Secretary for Environmental Management 
I do recognize we are the recipients of the transactions of the 
uranium market. I understand that the Secretary has always 
taken very seriously not having a negative impact on the 
uranium market, the domestic uranium market, and it's really a 
very difficult balancing act to try to manage that uranium 
market and no negative impact with the mission and needs of 
other parts of the Department.
    We certainly look at what needs to be done every year, and 
we certainly agree with you that transparency is critical in 
these transactions. In the most recent determination I 
understand there was a period of public comment. In fact I 
believe there were two periods of public comment, and those 
comments were taken into consideration during the determination 
for the latest secretarial determination.
    If confirmed I look forward to continued conversations with 
you and your staff regarding this very important issue.
    Senator Barrasso. Well, thank you. I think transparency and 
accountability are key, and I am going to submit some written 
questions for your consideration because I would really like to 
know some specific responses regarding your views on the bill 
before the Committee moves forward with your nomination.
    One other point. In April I sent Secretary Moniz a letter 
expressing concern about the Department's failure to conduct 
oversight on uranium transactions between Fluor, B and W, and 
the Traxys Group. Since 2011, the Department of Energy has 
transferred roughly $900 million of publicly-owned uranium 
which has financially benefitted these two companies. I believe 
it is especially important that the Department conduct 
oversight of these transactions now that Daniel Poneman, former 
Deputy Secretary of Energy, has actually joined the Board of 
Directors of one of these companies, Traxys.
    I am deeply troubled that Traxys has hired Mr. Poneman. Mr. 
Poneman led the Department of Energy when the agency violated 
Federal law with respect to uranium transactions that 
benefitted this company of which he is now on the Board. I 
think the Department should take steps to bring transparency to 
transactions involving this company, Traxys, in which he now 
sits on the Board.
    For example, I think the Department should condition its 
future transfers of excess uranium on requirement that one 
company, Fluor, publicly disclose its contracts with Traxys. 
The Department's response to my April letter did not address 
whether the Department would take that step.
    If confirmed would you be willing to help make Fluor's 
contracts with Traxys public?
    Dr. Regalbuto. Thank you for your question, Senator. I am 
familiar with the current process. From the Office of 
Environmental Management point of view, we barter for services. 
So we get credit for those services as soon as we transfer the 
material, and I understand that there is an additional step 
after that that you just described.
    If confirmed, I look forward to providing additional 
information from the appropriate people that can get back to 
you on those issues.
    Senator Barrasso. Well, thank you, because I believe this 
is a reasonable request. I think it will help the Department of 
Energy restore confidence in its own management of the public 
stockpile of excess uranium if we could have this, sort of, 
transparencies.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator Wyden.
    Senator Wyden. Thank you, Madam Chair. Dr. Regalbuto, I 
want to turn to Hanford as well and get a sense of what you are 
thinking in the year after we met in my office.
    The Government Accountability Office issued a report just a 
few weeks ago and stated that over the past 25 years the 
Department of Energy has spent $19 billion trying to make the 
high level tank safer and developing technology to process the 
56 million gallons of high level waste that are stored in these 
leaky, underground tanks. And they found that a gallon of the 
waste has been treated and the tanks are really no safer.
    So my question is, given the fact you have had a year to 
reflect on this, what would change on your watch?
    Dr. Regalbuto. Thank you for your question, Senator.
    I do share the concern of the leaking tanks at Hanford and 
your constituents. I think that is one of the top priorities in 
the Office of Environmental Management. Tank integrity is 
certainly something to be concerned, and I look forward to 
continue to work in those areas.
    The best way and the only permanent way to address tank 
waste is to immobilize it and to properly dispose of it as we 
move forward. Under the current situation at WTP it is 
recognized that as currently designed that facility has too 
many technical issues and you're aware, I'm familiar with 
those. And I, in the past year, have been looking at coming 
into the, you know, technical issue resolution for the high 
level waste facility and the pretreatment facility.
    In addition to that the Secretary certainly is moving in 
the path of immobilizing as soon as possible as much inventory 
as possible at the site, and we are looking at a path of 
initiating activities of the low activity waste as soon as 
possible. That facility does not have the technical issues that 
the other two have, so the path is a parallel path, 
immobilization, while we determine what happens at the other 
facility.
    Senator Wyden. Doctor, respectfully, that is very much 
along the lines of what I have been told for what seems like 
years now, so I will hold the record open. If you could state 
in writing, specifically, what would be different on your 
watch, that is what I am really looking for and that would be 
helpful.
    Let me turn to one other question with respect to Hanford. 
This deals with what I consider to be a culture of hostility 
against the whistle blowers at Hanford. This was confirmed by 
the fact that the Department's own Oversight Office last June 
found that only 30 percent of Federal employees in the office 
that oversee the high level radioactive tanks felt that they 
could come forward and actually challenge a management 
decision. When I looked at the history, particularly in four 
recent cases, two whistle blowers were fired, Dr. Thomas Sites 
and Donna Busche. We looked at four contractors overall, 
Bechtel, URS, Washington River Protection Solutions and the 
Computer Science Corporation and the Government either found 
that these contractors were retaliating or the contractors just 
were not cooperating at all.
    What would you do to end this culture of hostility against 
the whistle blowers at Hanford?
    Dr. Regalbuto. Thank you for your question, Senator. I 
recognize that there has been not the best culture with respect 
to whistle blowers. I will assure you that the Department of 
Energy and I personally take very serious this issue. We must 
have a culture at all of our sites if we are to achieve our 
mission of cleaning up the environment and that is that every 
worker, either in the Federal or contractor side, should be 
able to freely come and express any disagreement, issues and 
concerns.
    The whistle blower program is really what keeps us honest 
and keeps us into a path of moving forward. And I certainly 
support that moving forward.
    Senator Wyden. Doctor, I consider you very qualified to 
lead the Office of Environmental Management. I appreciate our 
discussion before. There is no question in my view about your 
technical capability to carry out this office, and I am going 
to support voting in favor of reporting your nomination to the 
Committee.
    I will tell you until I see some corrective action, 
concrete action, by the Department to make changes at Hanford 
in both of these areas to address that, I think, 
extraordinarily important report that came from the 
Governmental Accounting Office that I quoted before and to 
change this culture of hostility at Hanford with respect to the 
whistle blowers, I will be objecting to the Senate proceeding 
to your nomination.
    I hope that we can see some corrections before that time, 
and I want you to understand this is not a judgment with 
respect to your abilities because I have been impressed with 
our discussions. But we have got to get some changes.
    This has become what amounts to the longest running battle 
since the Trojan War. It just goes on and on at Hanford. The 
money just evaporates, as noted by the Governmental Accounting 
Office, and I mentioned those four specific cases. That is not 
an abstract question. Those are specific issues.
    So I hope that we will get this corrected, and I want you 
to understand that my judgment with respect to how I am going 
to vote in Committee is because I consider you qualified. I 
want this corrected, and it is going to have to be soon.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Wyden.
    Senator Capito.
    Senator Capito. Thank you, Madam Chair.
    I want to thank you both for your public service and 
dedication to the country. Thank you so much for being here 
today.
    I am going to, kind of, go along with questioning as the 
Chair moved forward only instead of oil exports I would like to 
talk about LNG.
    Mr. Elkind, thanks to obviously the innovations in energy 
exploration we have been given several opportunities, new 
opportunities, in the global markets. Many people think of the 
shale gas boom as being in the Western states, but as you know, 
I am from West Virginia. Our state is blessed with vast 
resources that we really do not know what the reserves are and 
we are discovering how massive they are. I think this presents 
great opportunities for us.
    In recent years recent data from the DOE has shown that we 
have more than enough natural gas in this country to power an 
industrial renaissance back here in the United States and in 
West Virginia and also to be able to export natural gas.
    What effects do you see the shale gas boom here will have 
on global energy markets? If our nation can trade with energy, 
our energy producing materials with our allies, such as 
Ukraine, you mentioned Ukraine in some of your opening 
statements. I believe this could have a great impact on that 
region. What is your outlook on that?
    Mr. Elkind. Senator, thank you for that question. This has 
been one of the most exciting pieces of the global energy scene 
to watch is the development of previously unanticipated natural 
gas reserves in the United States. Obviously it is the fruit of 
long labors conducted jointly by industry with participation of 
the Departments through about a 15 year period.
    It is a very good thing that there is greater diversity of 
natural gas in the global market, and as you will know the 
Department has been reviewing applications for exports as is 
called for under the Natural Gas Act. And we will see, by the 
beginning of next year, the first exports of LNG from the 
United States with the expectation should the already approved 
projects move ahead that we will become one of the largest LNG 
exporters around the globe.
    It is important to note that that doesn't automatically 
answer whether where natural gas will flow U.S. exports. For 
example, some of the countries the treaty was referring to, 
Ukraine and others in Central and Eastern Europe that most 
particularly need to have more choices. There are steps that 
they also need to take in terms of further development of their 
transportation infrastructure.
    Senator Capito. Right.
    Mr. Elkind. For natural gas. So this is an area that we are 
engaging on continuously with Ukraine, with other EU, with EU 
partners, pardon me, because we see lots of opportunity for 
benefit for them and for us as well.
    Senator Capito. Are you seeing any of those nations in 
particular that are developing the transportation 
infrastructure to receive the product?
    Mr. Elkind. Yes, it is happening. In the case of Ukraine 
the development of so-called reverse flow capacities so the 
pipelines can run in a west to east or north to south, in the 
case of Poland. That is happening step by step.
    We watch some of the further interconnection developments 
that need to happen in that more recent, the countries that 
more recently exceeded to European Union, in Central Europe and 
Eastern Europe. There's lots of unfinished business there, but 
there's also very keen awareness that that's an area where they 
need to step up the pace. And this is something that we're 
engaged continuously on with the European Commission and with 
the member states in the Eastern part of the European Union as 
well.
    Senator Capito. Well, I would encourage that and think it 
could be beneficial, obviously mutually beneficial, 
particularly for the area where I live.
    The last question I was going to ask you was is in 
reference to a letter. You mentioned the Western Hemisphere in 
your opening statements. I joined Chairman Murkowski on a 
letter with others urging that our neighbor to the South is 
treated in the same way as our neighbor to the North, Canada, 
with respect to crude exports. What is the status of that and 
what response do you have to the letter?
    Mr. Elkind. Senator, thank you for that. The--this 
question, as I mentioned before, is one that is obviously very, 
very important. We are aware of the interest on the part of 
Mexico, specifically PEMEX, to engage in a swap arrangement. It 
is my understanding that that particular application or 
question has been posed properly to the Department of Commerce 
as they have the jurisdiction for responding to that.
    Again, as we watch this dramatic change that is happening 
in U.S. production it, nonetheless, remains the case that we're 
a major importer. That doesn't mean that that's the only part 
of the story, but that is just a simple arithmetic fact that 
remains a part of the background today.
    Senator Capito. Alright, thank you.
    Mr. Elkind. Thank you.
    The Chairman. Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman, and thanks, 
both of you, for your appearance today and I will follow up on 
my colleague from West Virginia.
    As you know we have a very proud state, and we are abundant 
in energy. We have been a big energy producer for the country, 
net exporter of energy.
    She had asked the questions concerning natural gas that we 
have been blessed, and we think there are more formations that 
we are finding even as we speak.
    With that being said, I am going to turn to the coal issue 
because it is a very critical issue for us and our economy and 
our state. Mr. Elkind, can you please explain to me, from your 
standpoint, sir, and your role that we are working on now, your 
position.
    Coal is going to be a dominant or a significant factor of 
energy production in the world. If you all would agree to that 
or you do agree that the rest of the world is using more now 
than they have ever used in the history of the world. With that 
being said, also, if you could touch on the number of coal-
fired plants being built around the world, our ability to 
export coal since we are not using as much as we used to use in 
this country, but other countries that have demand for it, part 
of our economic engine.
    Next sir, your position on where we stand with China, the 
environmental deal that the President struck with China. For 
the life of me I cannot understand why you went to 
CO<INF>2</INF> emissions by 2030 but did not address any 
particulates and SO<INF>X</INF> and NO<INF>X</INF>. And 
SO<INF>X</INF> and NO<INF>X</INF> is what is killing the people 
in China today. It is not CO<INF>2</INF> even though we have to 
get both under control, why you all would not have taken the 
step that we have already taken with phase one of the Clean Air 
Act? So if you could maybe give me your background or 
explanation on that? First is coal in the world. How you all 
look at that.
    Mr. Elkind. Thank you, Senator. Your question exactly takes 
us to one of the core elements of how we approach our 
engagements on energy issues with international partners, and 
that is squarely in the spirit of all of the above.
    We are looking at the full range of energy sources. We are 
also looking at the demand side as well. I can come back to 
that at a later time. I say that because I completely agree 
with the point that you make which is that coal is a big part 
of our current fuel mix, globally and in the United States 
today, and we anticipate that that is going to be so moving 
forward. The question, though, within that is then how do we 
engage? With whom do we engage in order to make sure that we 
end up with coal being used in a way that is environmentally 
responsible?
    Senator Manchin. Right.
    Mr. Elkind. And that's a huge element of our engagements. 
You mentioned China. It's not only with China, but there's a 
big piece of----
    Senator Manchin. Well India is going to build more coal-
fired plants than China in the next five years.
    Mr. Elkind. Right. Right. So one of the things that we do 
is we lead on the, as DOE, in the Carbon Sequestration 
Leadership Forum which is a small grouping of countries that 
intend to keep using coal and how, in a more and more and more 
economically beneficial way, do you reduce costs in order to--
--
    Senator Manchin. Well how about with China?
    Mr. Elkind. Yeah.
    Senator Manchin. Why did you all not go on particulates? 
Same as what we have done with SO<INF>X</INF>, sulfur? We have 
clean taken SO<INF>X</INF> out of the atmosphere----
    Mr. Elkind. Right.
    Senator Manchin. In America, but we never even would have 
addressed it with China.
    Mr. Elkind. Senator, respectfully I would disagree that 
the----
    Senator Manchin. Okay.
    Mr. Elkind. Our conversations with our Chinese counterparts 
are exactly responsive to the concern that they have, the 
concern that they properly have, about air quality that is 
killing people in their country.
    So we are working with them on advanced coal technologies. 
I'll give you one particular example where your state and 
institutions in your state play a critical role and that is the 
U.S./China Clean Energy Research Center. Under that research 
center advanced coal technologies are one of the three areas 
that we are focusing on. That effort which is a virtual center, 
kind of, an effort involves joint research teams involving the 
U.S. and China, public sector and private sector.
    Senator Manchin. Sir, we are going to run out of time, if I 
can just interrupt you real quick.
    Mr. Elkind. Please.
    Senator Manchin. Do you see any other country in the world 
that is depending on coal moving away from coal as quickly as 
we are in this nation or following our lead? When there are 
1,200 new coal-fired plants being planned to be built in the 
world, none of them in America. I do not think they are taking 
our lead. We believe that they are going to follow our lead or 
we are going to hold them hostage to our trading policies? I do 
not see any of that happening.
    Mr. Elkind. Senator, what we do see absolutely is an 
interest, a strong interest, to collaborate with the United 
States and with the Department of Energy, in particular, in 
exactly the way that West Virginia University is leading with 
our Chinese counterparts for how do you reduce emissions.
    Senator Manchin. Right.
    Mr. Elkind. Reduce costs. And so I do see a very strong 
interest. It comes, of course, with the proviso that countries 
like China, the world's largest coal consumer, they see 
themselves continuing to use coal.
    Senator Manchin. I am so sorry, Madam Chairman.
    With all that being said we all agree that coal is going to 
be used in the world for some time, that we all need to use it 
better and cleaner with technology, but we are not investing in 
technology.
    It is almost like we are in denial in the United States of 
America thinking that we can basically not address the use of 
it by finding new technology sources to do it or basically 
creating a whole another. It would be a whole other industry 
for the state of West Virginia, who has been decimated by the 
policies of this Administration, if we could try to find the 
cure for the environment for the whole world that is using this 
product. But we are not getting any help from the Department of 
Energy investing in that technology because there are no takers 
stepping up to the plate because there is no certainty in the 
rules and policies that we have. They will not step forward.
    We'll get with you later on that, sir. I would like to take 
this conversation further with you.
    Mr. Elkind. Senator, I'd welcome the opportunity to do 
that.
    Senator Manchin. Thank you.
    Mr. Elkind. And to talk both about the things that we're 
doing domestically with----
    Senator Manchin. Absolutely.
    Mr. Elkind. The Loan Guarantee Program and the 
investments----
    Senator Manchin. Yeah, thank you.
    Mr. Elkind. In demonstration plants and also what, in my 
particular portfolio, what we're doing----
    Senator Manchin. We will set up a meeting with you if you 
can come and we will sit down. Thank you, sir.
    Mr. Elkind. Thank you, sir.
    The Chairman. Senator Risch.
    Senator Risch. Thank you, Madam Chairman.
    Mr. Elkind, and this is a comment as opposed to a question 
but sitting here I am somewhat amused at your statements about 
how wonderful fracking is and the explosion that it has caused 
in the production of natural gas in America, and that somehow 
the Government was a partner and a cooperator in this.
    I know you give a lot of speeches internationally. I would 
hope you would instead stress about the Government's role in 
this, what a great system the free market entrepreneurial 
system is with its innovation and its entrepreneurialship 
because this was all done by the free market. It certainly was 
not done by the Government. I would say it was done in spite of 
the United States Government as opposed to with its help. So, 
in any event, my comment.
    Dr. Regalbuto, I want to talk to you about the integrated 
waste treatment unit at INL. You and I have had lots of 
conversations about the cleanup contract, and the cleanup 
contract, by and large, has worked quite well over the years. 
Every governor since the time it was signed has stood shoulder 
to shoulder to keep the contract intact and enforced, and the 
Department of Energy, overall, has been compliant, for which we 
are very appreciative. As you know, we are really struggling, I 
guess everybody is struggling, with the IWTU. How many hundred 
million do we have in it now? I do not know how many hundred 
million has been spent on that trying to get it to work and it 
is still not working.
    I would like to get your thoughts on that. I know there are 
a lot of heroes right now saying, ``oh, I told you it wouldn't 
work,'' which is easy to say after the fact. At some point in 
time we are probably going to have to do something different, 
but tell me where you are on it and what your thoughts are on 
it?
    Dr. Regalbuto. Thank you for your question, Senator. It is 
definitely a challenge that the integrated waste treatment 
facility in Idaho has had its share of technical setbacks. And 
just to give you a little of background on that is that 
unfortunately that facility was declared to be a CD4 
prematurely as we have had some conversations in the past. And 
that has caused delays which certainly we were not forecasting.
    What we are currently doing in IWTU is we stood up an 
operation support team that is actually looking specifically at 
how to bring the facility into operation safely. We are very 
lucky that the Idaho National Laboratory is providing extensive 
support to this facility and that the activities initiated 
there pretty much at the beginning of the year, and we have 
done significant progress since the Idaho team from the--team 
to join us which we're very grateful to Director Grossenbacher 
for, you know, being able to support us in this effort.
    Where we currently are is we did a simulant run. A simulant 
run is necessary for us to address all the operational 
activities that are going to help when we place waste in there. 
And after the simulant run which we finished about December of 
last year, we have gone through a period of outage. We have 
done some modifications to the facilities in order to assure 
that the safety envelope is met, and we plan to button up the 
facility and initiate another set of simulant run in order to 
test all the modifications that were done. After that simulant 
run we will be in a better position to determine when we'll be 
initiating waste cleanup.
    It is a priority personally for me and for the Department, 
and I do look forward to having more conversations with you. 
And we will keep you updated in any developments.
    Senator Risch. I appreciate that, and I also understand how 
difficult this is. This is not like going in with the broom and 
cleaning something up. It is highly technical.
    John Grossenbacher and his team at the Idaho National 
Laboratories is as good as they get. If they cannot make it 
work, nobody can make it work.
    So I guess I was looking for some comment from you about 
how long are we going to keep trying because this has been 
going on for lots and lots of money and lots and lots of time. 
At some point in time I guess we are going to probably have to 
shift to something else.
    Are you still fully committed to it, to make it work at the 
present time?
    Dr. Regalbuto. Thank you for your question, Senator. As 
mentioned, we will do another simulant run, and then we will do 
an evaluation of how far did we push this facility or do we 
consider alternatives. So at this point in time until we 
conclude that next simulant run, we will be in a better 
position to inform you on a path forward. And if confirmed, I 
look forward to having those discussions with you and your 
delegation.
    Senator Risch. Fair enough, I appreciate that.
    Of course, you and I have talked at length about the 
difficulties at WIPP and the problems it is going to cause in 
meeting a 2018 deadline. I just want to underscore how 
important that is to us that we do everything we can to meet 
that deadline or else there are going to be issues. We already 
have people in the state chewing on us about that. We are not 
there yet, but we have got to keep our eye on that. Thank you 
very much.
    Thank you, Madam Chair.
    The Chairman. Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chair.
    Speaking of WIPP, Dr. Regalbuto, I want to start by saying 
thank you for your visit to WIPP last week. The workers and the 
community very much appreciated your being there again, and I 
would like to invite you to visit Los Alamos once you are 
confirmed.
    I know that reopening WIPP continues to be a very high 
priority for you, and I fully support that effort. I wanted to 
ask you how you describe the current status of that recovery 
effort, and specifically, what is your best estimate for when 
initial waste emplacements will resume and for the return of 
WIPP to normal operations?
    Dr. Regalbuto. Thank you, Senator. I really appreciated the 
opportunity to visit Los Alamos. I have been in the laboratory 
side, but I haven't been in the waste emplacement facility, so 
I certainly look forward to that, if confirmed.
    Regarding the WIPP facility, as you're aware the Accident 
Investigation Board presented the last and the final of its 
reports. It is certainly a very comprehensive investigation. We 
are in the process of addressing all the recommendations.
    The target for waste emplacement is the first quarter of 
next year, but please do understand that we will not do 
emplacement operations until the facility can be run safely. As 
we keep on addressing the Accident Investigation Board 
recommendations, we will have a better estimate of what that 
date will be.
    I personally will be there next week, and we are, you know, 
we have again, another similar type of format as we employ at 
Idaho where we have an operations support team. We have about 
eight different areas we're looking at, and we're taking a look 
at exactly how we're going to prevent this incident from 
happening again, looking at all the recommendations and what it 
takes to implement it. So far we have done great progress. As 
you're aware we had a temporary closing of the panels which is 
a major milestone for us and for the community.
    We're also working in the combustible loading. A 
significant amount of work has been done in the underground and 
every time we go it's a better place, and that is certainly the 
direction we want to be.
    We are looking into now the certification and the 
characterization of the material that comes to the facility. As 
we certainly know that is one of the issues that was addressed 
by the Accident Investigation Board.
    So a lot of progress has been made, but more work remains 
to be done. And similar to any other facility in the complex, 
when we initiate emplacement operations, we will start with 
bringing in non-radioactive drums. We will practice and 
continue to do that, and when we're convinced that is done 
safely then we will switch to the waste itself. So emplacement 
will start with what we call the dummy drum.
    Senator Heinrich. Right.
    Dr. Regalbuto. Right.
    Senator Heinrich. So if you meet that target of first 
quarter of next year for initial emplacement of dummy drums and 
start working your way back towards normal operations, do you 
have a sense for if things go smoothly when normal operations 
might resume?
    Dr. Regalbuto. Thank you for your question, Senator. We 
will have a better idea of when what you call full or normal 
operations are going back once we get a little bit farther on 
the permanent ventilation. As you're aware we are competing for 
air in the facility.
    Senator Heinrich. Right.
    Dr. Regalbuto. And we're not working at the permanent needs 
to full operations where we're about one-third, one-fourth. I'm 
sorry, one-third, 40 percent or so. We're bringing interim 
ventilation, a temporary ventilation. But we will need the 
permanent ventilation.
    That project is currently looking at alternatives, and we 
will be getting to CD1 relatively quickly, once those 
alternatives are submitted and being that we do due diligence. 
And that once that is done we will have a better idea of when 
is the schedule going to be.
    Senator Heinrich. Okay. Well, backing up again to the 
cleanup effort at Los Alamos Lab. You are aware of my concerns 
about the upcoming transition in program management. As you 
develop an acquisition plan for the new contractors, how are 
you going to assure that local, small businesses continue to 
have an opportunity to play an active role in that cleanup 
effort?
    Dr. Regalbuto. Thank you for your question, Senator. As you 
are aware the Department champions the small business efforts 
and EM actually leads the Department in this effort, not just 
from subcontractors, but from prime contractors. And that is 
one area that the Secretary assuredly emphasizes.
    As we move into transition in the contracts that is 
certainly one of our top priorities, not only at Los Alamos, 
but at all different sites of the Department. And the Secretary 
has asked us to, you know, take a very hard look at how do we 
continue to have the same provisions or similar provisions than 
the old contract used to have.
    Senator Heinrich. Well, I look forward to seeing that. And 
hopefully if you could get back to us in writing about how that 
will look once those decisions are made, I would very much 
appreciate it.
    Thank you, Madam Chair.
    The Chairman. Senator King.
    Senator King. Thank you, Madam Chair.
    Before beginning my questions I have to differ with my good 
friend, the Senator from Idaho. The historic record is 
absolutely clear that loan guarantees, research and support 
from the Department of Energy in the 60s and 70s was essential 
to the development of the hydro fracking technology.
    George Mitchell, the father of that technology, has 
acknowledged that, and the literature, I think, is very clear. 
To argue that somehow the Federal Government impeded this 
technology, when in fact, it facilitated it, is just not 
accurate in terms of the historic record.
    Ms. Regalbuto, a couple of questions. If you all have 
noticed we only have five minutes, so I would like very 
specific answers. I know this is not specifically your area, 
but is there any hope of a high level, nuclear waste facility 
for commercial waste from around the country? Is there anything 
on the horizon, just very briefly?
    Dr. Regalbuto. Thank you for your question, Senator. The 
high level waste disposal facility is not under my purview 
under the Office of Environmental Management. It's actually 
under the purview of the Office of----
    Senator King. I understand that. You have been in this 
field for 20 years. I want to know if you see anything on the 
horizon. Yes or no?
    Dr. Regalbuto. The Administration has a path forward to 
continue to look into this area.
    Senator King. Where is the government high level waste 
going now?
    Dr. Regalbuto. Depending on which high level waste it is 
the commercial high level waste is stored at the utilities and 
the----
    Senator King. No, I understand that. I am talking about the 
government waste.
    Dr. Regalbuto. That----
    Senator King. The waste you are taking out of Hanford, 
where does that go?
    Dr. Regalbuto. That is stored at the sites pending 
disposal.
    Senator King. So is all the government waste being taken to 
one site or do you have specific sites around the country?
    Dr. Regalbuto. No, there are specific sites around the 
country and they're in different forms. Some of our waste is 
vitrified. Some of our waste, unfortunately, has not been 
treated, such as Hanford.
    Senator King. Well, I know it is not within your purview, 
but I think it is one of the great failures of the Federal 
Government for 60 years that we have not found a way to deal 
with this. We have high level nuclear waste in Wisconsin Bay 
and it should not be there, because the Government has failed 
to meet its commitments with regard to a disposal site.
    Mr. Elkind, another very straightforward question. Would it 
be in the public interest if exports of natural gas 
substantially raised domestic prices?
    Mr. Elkind. Thank you, Senator, for that question. The 
price impacts are exactly part of the examination of the public 
interests that is undertaken by our colleagues in the Office of 
Fossil Energy. It is one of the factors that are laid out, 
specifically, in a public document that has been notified 
through the Federal Register.
    So, other things being equal impacts in the form of higher 
prices would not be desirable. But I cannot give you a crisp 
answer because, in the hypothetical, that does not allow a 
consideration of the other potential impacts in a given case. 
I'm sorry.
    Senator King. Approximately 600 million people in Africa 
have no electricity. Electricity access in places like Africa 
or remote villages in the Arctic or wherever they are is a very 
serious problem. Do you see distributed energy, that is energy 
produced on the site, as a possible answer to this problem 
because it skips over the infrastructure requirements of 
massive transmission lines, similar to what has happened with 
telephone service?
    Mr. Elkind. Thank you, Senator. Yes, absolutely, 
distributed generation has a very important role to play in the 
total mix.
    In the case of our engagements with Africa, Secretary 
Moniz, you may be aware, about this time last year chaired in 
Addis Ababa, a U.S./Africa Energy Ministers Meeting that was 
co-hosted, that was hosted, excuse me, by his Ethiopian 
counterpart that involved about 25 energy ministers from 
across, mostly Sub-Saharan Africa.
    We were focused in that conversation on distributed 
generation as a part of the mix. We are making available to the 
Power Africa Initiative, a Presidential initiative, led out of 
the U.S. Agency for International Development, capabilities 
that are being, whose time is being paid for, if you will, by 
our colleagues from AID. But some of the technical capacities 
that exist in the DOE labs, in order to push this ball forward, 
with those countries across the African continent that are 
wanting to focus on DG applications.
    Senator King. Thank you. I think it is very important.
    I am engaged on the Intelligence and Armed Services 
Committee and the fight against radical jihadists. Poverty is a 
feeder for that problem. To the extent we can support and just 
by technology transfer, not necessarily direct aid, additional 
electrification which raises standards of living in wherever it 
occurs, that is also a national security concern.
    I am out of time, but I commend you for that work. I hope 
that that will be a significant focus of your work going 
forward in International Energy Affairs. Thank you both for 
your testimony.
    Mr. Elkind. Thank you, Senator.
    The Chairman. Thank you.
    I do not have any further questions, but I know that 
Senator Cantwell has one.
    I did want to comment very briefly on a statement that you 
made, Mr. Elkind, about oil exports and the fact that we 
continue to import quantities of oil. It is an argument that I 
think is disingenuous at best. I have suggested so to the 
Secretary that we need to remember that we are the only 
advanced country member of the OECD that bans oil exports.
    Countries like Australia, Canada, Britain, they import. 
They export oil. You, in fact, noted that, the report, the 
White Paper that we released last week which goes into great 
detail about the number of countries that export oil who do not 
even produce oil or who produce very limited quantities of oil.
    So again, it is something I recognize that the statement 
is, in fact, very true that we are continuing to import. We 
also know that much of that has to do with how our refineries 
are situated, and it is something that is not just a math 
situation where until the day that we stop importing oil, that 
is when we can stop--start talking about our ability to export. 
We are the only country, again, the only country, that bans an 
export on oil as an oil producer. It is a ban of one, as the 
report has noted. I just wanted to put that on the record.
    With that, I will turn to Senator Cantwell for her final 
questions. We have got a vote coming up in just a couple 
minutes, so this was pretty good timing this morning.
    Senator Cantwell. It is good. Thank you, Madam Chair.
    Mr. Elkind, I wanted to touch base with you. Obviously the 
members of the Northwest Delegation care greatly about the 
Columbia River Treaty and making sure that gets executed. Can 
you tell me what you think the Department of Energy can do, 
specifically, to make sure that negotiations and the 
stakeholders' representation are done so that we secure a 
position from the Administration and move forward on the 
negotiations?
    Mr. Elkind. Yes, thank you, Senator, for the question. I do 
very much understand the importance of this to your 
constituents and to others in the Northwest. And as you, of 
course, will know Bonneville Power Administration and the U.S. 
Army Corps of Engineers serve as the so called U.S. entity for 
purposes of the treaty. And they've been working over the last 
couple of years to pull together a regional recommendation for 
how the treaty could look going forward.
    My team has been engaged in that conversation with regional 
stakeholders along with BPA and the Army Corps. We've done so 
because we understand the importance of moving this issue 
forward. We will continue to stay engaged in that fashion, and 
in view of the very clear sense of urgency we will do 
everything that we can to help facilitate forward motion.
    We understand that there are internal deliberations that 
are gaining momentum with our interagency partners. I realize 
that is not the answer that you are seeking, but I can tell you 
that if I am confirmed this is an issue that will have my clear 
focus because I understand the importance of its being moved 
off of dead center. Thank you.
    Senator Cantwell. Thank you. I think your leadership 
position in the Department of Energy is instrumental in 
ensuring that all the interests across various Government 
agencies are formulated in a final position, which is critical 
in the timing of the negotiations. So we will look forward to 
your leadership on that.
    Dr. Regalbuto, I wanted to go back to the 324 site for a 
second, and I have a couple of questions.
    On this issue of the cesium and strontium, the contaminants 
that we do not know how to deal with, when should we get a 
timeline on how to deal with those contaminants because we have 
had an open-ended time frame here where we try to figure out 
how to treat them. At what point should we look for other plans 
if we do not know how to treat them?
    Dr. Regalbuto. Thank you for your question, Senator. I 
personally will have to look a little bit more into the 
specifics of which is exactly the contaminants that they're the 
main concern is. If confirmed I look forward to coming back and 
briefing you on this area. At this point I don't have the 
details of which are the specific contaminants that are in 
question, but I look forward to catching up and coming back to 
you.
    Senator Cantwell. In your earlier remarks, you stated it 
was clear we did not have some treatment capabilities or they 
were not seeming to work. So I am looking for certainty on this 
situation that has existed for some while. We have had this 
issue where we have, for some time, said we do not know how to 
treat it. What I really want to understand is what is the plan 
for identifying treatment methods? If we come to a point after 
a year or two that we still do not have any treatment responses 
for those chemicals what are our alternative plans?
    I think we have gone for a long time with a certain level 
of uncertainty, and I think from your testimony and the answer 
to the previous question you believe that we will be able to 
contain and remediate this plume. But I think people want to 
know, from a scientific perspective, if we cannot over the next 
few years come up with a treatment process for these 
contaminants, what are the alternatives? If you could, for the 
record give us answers on that, that would be great.
    Dr. Regalbuto. Yes, thank you, Senator. It really is an 
issue of efficiency of the process versus cost. You know, we do 
have the ability of remove chemicals, pretty much, from every 
surface. The question is what is the cost and what is the 
efficiency of that process? And what one seeks to look at in an 
industrial process such as this one is we need to balance the 
cost with the efficiency of the process.
    So certain activities one can do, for example, in the 
pharmaceutical industry where it's only a small batch, one 
kilogram or two kilograms per year is certainly not an 
efficient process to remove contaminants from soil. So that is 
really where we are in the process. But I'd be happy to, you 
know, get back to you on this issue.
    Senator Cantwell. I appreciate that analysis and understand 
the cost considerations. I think to some of my colleagues' 
comments, they are always surprised how much it costs to clean 
up Hanford.
    Dr. Regalbuto. Yes.
    Senator Cantwell. It is the largest cleanup site in the 
entire world, and its complexity dwarfs anything we have ever 
done at any other Federal site. We need to continue to look to 
the science to solve these problems. There are no shortcuts.
    But on this point, I think without a plan to cleanup that 
material I think we keep, I don't know if we are waiting, as 
you say, so the efficiency issue is counterbalanced by the 
issue that I am very concerned about groundwater contamination 
and the plume continuing to reach closer to a water source or 
local population.
    What I would be more comfortable with is some sort of 
analysis by you and DOE. At what point do you just say, ``we do 
not know how to cost effectively treat these contaminants.'' We 
are not going to have the answer in the next three years or 
five years and the alternative cleanup process would look like 
this. If you could give us something for the record on that, 
that would be great.
    If I could just ask you about the waste treatment plant and 
its use of energy: are you still considering liquid natural gas 
as a fuel source for the operation of the waste treatment 
plant?
    Dr. Regalbuto. Yes.
    Senator Cantwell. Okay, is that going through an EIS, and 
if so, when would that be done?
    Dr. Regalbuto. It was going through an EIS but there was a 
slow down because of the need to align the activities that we 
want to do with the central plateau in support of WTP. So yes, 
we will continue to look at replacing the diesel with natural 
gas. We recognize the benefits to the environment and the 
sustainability to the site.
    But the EIS has slowed down until we can better align the 
two processes. Once that is aligned we will continue the EIS 
and look forward to working with the Committee.
    Senator Cantwell. Was that this year, 2015?
    Dr. Regalbuto. I need to check when this projects are 
aligned but it is our, you know, intention to continue to do 
this. And we will definitely switch to natural gas.
    Senator Cantwell. Okay, thank you, and we will look forward 
to that. Thank you very much.
    The Chairman. Senator King, did you have any final 
questions?
    Senator King. No, Madam Chair.
    The Chairman. Thank you.
    I want to thank both of you, not only for your time here 
this morning before the Committee, but for your willingness to 
serve in the acting capacity during this time. I know that is 
not an easy position to be in, but we appreciate what you have 
offered us in terms of the questions and we will look forward 
to your responses if members have further follow up. I know 
that there were some specific requests made to each of you, and 
we would hope that those would be given due and prompt 
consideration so that we can, as a Committee, do our jobs here. 
We appreciate you for the jobs that you do.
    And with that the Committee stands adjourned.
    [Whereupon, at 11.30 a.m., the hearing was adjourned.]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
